No. _____________
In The

Supreme Court of the United States
__________

PETER F. GARY, an individual and Florida citizen;
PINNACLE HOLDINGS GROUP, LLC, a Florida
limited
liability
company;
PINNACLE
ADVERTISING & MARKETING GROUP, LLC, a
Florida limited liability company; PINNACLE
ADVISORY MANAGEMENT, LLC, a Florida
limited liability company; and PINNACLE
DIGITAL, LLC, a Florida limited liability company,
Petitioners,
v.
JTC HOLDINGS, LLC, a Colorado limited liability
company,
Respondent.
__________
On Petition for a Writ of Certiorari to the
Colorado Court of Appeals
__________
APPENDIX TO PETITION FOR WRIT OF
CERTIORARI
___________
JEFFREY A. SPRINGER
SPRINGER AND STEINBERG, P.C.
1600 BROADWAY, SUITE 1200
DENVER CO 80202
JSPRINGER@SPRINGERSTEINBERG.COM
(303) 861-2800
Counsel for Petitioners

Appendix 1
APPENDIX A — Order of the Colorado
Supreme Court Filed October 12, 2020
Case No. 2020SC564
PETER F. GARY, an individual and Florida
citizen; PINNACLE HOLDINGS GROUP, LLC,
a Florida limited liability company; PINNACLE
ADVERTISING & MARKETING GROUP, LLC,
a Florida limited liability company; PINNACLE
ADVISORY MANAGEMENT, LLC, a Florida
limited liability company; and PINNACLE
DIGITAL LLC, a Florida limited liability
company,
Petitioners,
v.
HOLDINGS, LLC, a Colorado limited liability
company.
Respondent.
ORDER OF COURT
Upon consideration of the Petition for Writ of
Certiorari to the Colorado Court of Appeals and after
review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of
Certiorari shall be, and the same hereby is, DENIED.
BY THE COURT, EN BANC, OCTOBER 12, 2020.

Appendix 2
APPENDIX B — Modified Opinion of the
Colorado Court of Appeals Filed June 11, 2020
Case No. 2019CA382
PETER F. GARY, an individual and Florida
citizen; PINNACLE HOLDINGS GROUP, LLC,
a Florida limited liability company; PINNACLE
ADVERTISING & MARKETING GROUP, LLC,
a Florida limited liability company; PINNACLE
ADVISORY MANAGEMENT, LLC, a Florida
limited liability company; and PINNACLE
DIGITAL LLC, a Florida limited liability
company,
Defendants-Appellees,
v.
HOLDINGS, LLC, a Colorado limited liability
company.
Appellant.
JUDGMENT REVERSED AND CASE REMANDED
WITH DIRECTIONS
Opinion by JUDGE RICHMAN
Dunn and Yun, JJ., concur
Opinion Modified and Petition for Rehearing
DENIED
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced May 21, 2020

Appendix 3
OPINION is modified as follows:
Page 16, ¶ 38 currently reads:
We conclude that it does not “offend traditional
notions of fair play and substantial justice” to subject
defendants to the jurisdiction of Colorado courts. Int’l
Shoe, 326 U.S. at 316.
Opinion now reads:
We further conclude that it does not “offend
traditional notions of fair play and substantial justice”
to subject defendants to the jurisdiction of Colorado
courts; the exercise of personal jurisdiction is
reasonable because defendants purposefully solicited
capital contributions from a Colorado resident. Int’l
Shoe, 326 U.S. at 316; see Goetmann, 176 P.3d at 71.
“A defendant which has purposely directed its
activities at forum residents must present a
compelling case that some other consideration would
render the court’s exercise of jurisdiction
unreasonable.” Dorsey & Whitney LLP v. RegScan,
Inc., 2018 COA 21, ¶ 16. Defendants’ claim of “a
substantial burden” because they are Florida
residents that do not (1) regularly transact business
in Colorado, (2) have Colorado business licenses, or (3)
have Colorado offices does not compel a conclusion
that Colorado jurisdiction is unreasonable.
¶ 1 Plaintiff, JTC Holdings, LLC, a Colorado
limited liability company, appeals district court orders
(1) dismissing its lawsuit against and (2) awarding
attorney fees to defendants, Peter F. Gary, a Florida
citizen, and Florida limited liability companies
Pinnacle Holdings Group, LLC (PHG), Pinnacle
Advertising & Marketing Group, LLC (PAMG),

Appendix 4
Pinnacle Advisory Management, LLC (PAM), and
Pinnacle Digital, LLC (PD). Because we conclude that
the relevant operating agreements permit suit in
Colorado and that defendants have sufficient
minimum contacts with Colorado to confer specific
personal jurisdiction, we reverse the judgment and
remand the case for further proceedings.
I. Background
¶ 2 On October 1, 2014, plaintiff entered into
operating agreements wherein he became a managing
member of three defendant Pinnacle companies —
PHG, PAMG, and PD — each formed for activities
related to “selling, promoting and managing
businesses and/or individuals in the entertainment,
media, and sports industries.” At that time, JTC made
the lone capital contribution to each company, in
respective amounts of $500,000, $600,000, and
$150,000.
¶ 3 Defendant Gary is the Chief Executive Officer
of FNB Media, LLC, which is a managing member of
PHG and PAMG. FNB Media and the two other
managing members of these companies — Trinity
International, LLC and Excelura, LLC — are each
located in Florida.1
1 In 2015, Trinity and Excelura each sold portions
of their managing membership interest in PAMG to
SMGI United, LLC, a Texas company. SMGI
contributed $500,000 capital to PAMG.

¶ 4 PHG and JTC are the managing members of
PD. PHG is the sole managing member of PAM, also
formed on October 1, 2014.

Appendix 5
¶ 5 According to JTC’s complaint, Gary asked it for
additional capital contributions in 2015. In September
of that year, JTC became suspicious that its
investment was being mismanaged and demanded
disclosure of the Pinnacle companies’ records. When
records were not forthcoming, JTC brought a “Records
Action” in Florida, seeking to compel the production of
the companies’ financial documents. The eventual
records disclosure suggested to JTC that Gary had
improperly charged hundreds of thousands of dollars
in personal expenses to the Pinnacle companies from
2014-2017. Some of the allegedly improper charges
occurred in Colorado, and those charges were paid by
PAMG.
¶ 6 Also according to the complaint, Gary called a
member meeting in September 2015, without proper
notice to JTC. At the meeting, in JTC’s absence, Gary
proposed (1) dissolution of PHG, PD, and PAM and
transfer of all assets and liabilities to PAMG; and (2)
that each member agree to provide additional funds to
PAMG or have its membership interest reduced to
zero. All members in attendance voted in favor of the
proposals. JTC did not provide additional funds. Gary
dissolved PHG, PD, and PAM, and “ended” JTC’s
interest in PAMG.
¶ 7 JTC filed a complaint against defendants in
federal district court in Colorado. That complaint is
not in the record. JTC alleges that it “voluntarily
dismissed that case” to avoid a potential Tenth Circuit
decision that the federal courts lacked diversity
jurisdiction.
¶ 8 JTC next filed the instant complaint in
Jefferson County, its principal place of business. It
claims conversion, breach of contract, and accounting

Appendix 6
against all defendants, and breach of fiduciary duty
against defendant Gary.
¶ 9 Defendants moved to dismiss on the grounds of
improper venue, lack of personal jurisdiction, and
plaintiff’s failure to properly plead derivative claims.
The district court granted the motion, finding that (1)
the operating agreements contained a mandatory
forum selection clause, requiring claims under the
agreements to be brought in Palm Beach County,
Florida; and (2) it did not have personal jurisdiction
because defendants did not have sufficient minimum
contacts with Colorado.2 We disagree on both counts.
The district court did not reach defendants’
argument that the case should be dismissed because JTC
had failed to properly plead derivative claims.
2

¶ 10 Because we reverse the dismissal, we
necessarily reverse the attorney fees award, and we
need not address the specifics of that order.
II. Venue
¶ 11 We review a district court’s interpretation of
a contract de novo. Ad Two, Inc. v. City & Cty. of
Denver, 9 P.3d 373, 376 (Colo. 2000); see People v. Ray,
109 P.3d 996, 999 (Colo. App. 2004) (holding that a
court’s legal conclusion regarding appropriate venue
is subject to de novo review).
¶ 12 The operating agreements for each Pinnacle
defendant contain the following clause:
Governing Law and Venue. This Operating
Agreement and the rights of the Members are
governed by and construed and enforced in accordance

Appendix 7
with the laws of the State of Florida, with venue
proper in Palm Beach County, Florida.
¶ 13 The district court concluded, applying
Colorado law, that the provision constituted a
“mandatory” venue provision, as opposed to a
permissive provision, and required venue be lodged in
Palm Beach County, Florida. We conclude that the
district court erred.
A. Governing Law
¶ 14 Though the contract term for venue specifies
the choice of law, and defendants asserted in the reply
supporting their motion to dismiss that Florida law
applies,3 neither plaintiff nor the district court
considered whether Florida law should govern
whether the contract permits suit in a forum other
than Palm Beach County, Florida. We agree with
defendants that Florida law governs this
determination.
Defendants point out this issue once again in their
appellate answer brief.
3

¶ 15 When parties to a contract choose the law to
govern their contract, Colorado courts will apply the
chosen law unless “the chosen state has no substantial
relationship to the parties or the transaction and
there is no other reasonable basis for the parties’
choice.” Restatement (Second) of Conflict of Laws §
187 (Am. Law Inst. 1971); see Wood Bros. Homes, Inc.
v. Walker Adjustment Bureau, 198 Colo. 444, 447, 601
P.2d 1369, 1372 (1979) (adopting the Restatement
(Second) approach for contract actions). We treat
choice of law provisions as mandatory when “the

Appendix 8
language of the parties’ agreement [is] clear in its
designation.” Mountain States Adjustment v. Cooke,
2016 COA 80, ¶ 15. We construe this provision to
clearly designate “the laws of the State of Florida” to
govern the contract.
¶ 16 A forum selection clause is part of the
contract, to be governed by the law selected by the
parties to the contract. Yavuz v. 61 MM, Ltd., 465 F.3d
418, 428 (10th Cir. 2006) (“[W]hen the contract
contains a choice-of-law clause, a court can effectuate
the parties’ agreement concerning the forum only if it
interprets the forum clause under the chosen law.”);
see Edge Telecom v. Sterling Bank, 143 P.3d 1155,
1158-59 (Colo. App. 2006) (holding that the issue of
interpretation of a forum selection clause is a matter
of substantive contract law).
¶ 17 We apply Florida law to interpret the venue
clause.
B. Venue Provision is Permissive
¶ 18 In Florida, “[t]he general rule is that a forum
selection clause will be considered permissive if it
lacks words of exclusivity.” Celistics, LLC v. Gonzalez,
22 So. 3d 824, 826 (Fla. Dist. Ct. App. 2009). Absent
“magic” words of exclusivity such as shall, must,
exclusively, or only, a provision may nonetheless be
interpreted as mandatory if it indicates agreement by
the parties to select a particular venue or limits the
appropriate forum to only one option. See id.
(concluding that language of exclusivity is included in
the provision “the parties agree to select the venue
and jurisdiction of the Courts and Tribunals of the city
of Madrid”); see also Quick Cash, LLC v. Tradenet

Appendix 9
Enter. Inc., 211 So. 3d 1113, 1114 (Fla. Dist. Ct. App.
2017).
¶ 19 We discern no language of exclusivity in the
subject venue provision. It does not contain language
indicating the parties’ agreement. It indicates one
proper venue, but it does not suggest that Palm Beach
County is the only proper venue or that other venues
would be improper. Indeed, the clause is nearly
identical to one interpreted by a Florida District Court
of Appeal to be permissive regarding venue because it
lacks words of exclusivity. See Regal Kitchens, Inc. v.
O’Connor & Taylor Condo. Constr., Inc., 894 So. 2d
288, 290 (Fla. Dist. Ct. App. 2005) (“Any litigation
concerning this contract shall be governed by the law
of the State of Florida, with proper venue in Palm
Beach County.”) (emphasis added). The court
concluded that such language is “nothing more than a
consent to jurisdiction and venue in the named forum
and do[es] not exclude jurisdiction or venue in any
other forum.” Id. at 291; cf. Golf Scoring Sys.
Unlimited, Inc. v. Remedio, 877 So. 2d 827, 829 (Fla.
Dist. Ct. App. 2004) (holding that the phrase “the
proper venue” is sufficient to designate a mandatory
forum because “‘the’ limits that to which it refers to
only one, to the exclusion of all others”) (emphasis
added).
¶ 20 Accordingly, we conclude that it was error for
the district court to apply Colorado law and dismiss
this action for improper venue in Jefferson County,
Colorado, where plaintiff resides. See Denver Air Ctr.
v. Dist. Court, 839 P.2d 1182, 1184-85 (Colo. 1992)
(“The language of [C.R.C.P. 98(c)] has been
interpreted to permit trial of an action in the county
of plaintiff’s choice where no defendant is a resident of
Colorado.”).

Appendix 10
¶ 21 Moreover, we conclude that the district court
misapplied Vanderbeek v. Vernon Corp., 25 P.3d 1242
(Colo. App. 2000), aff’d, 50 P.3d 866 (Colo. 2002), the
only case on which it relied, to interpret the subject
venue clause as mandatory under Colorado law. The
division in Vanderbeek interpreted a clause wherein
the parties “expressly agree[d] to submit any dispute
or action . . . to the jurisdiction of [specific state,
federal, and international courts].” Id. at 1247
(emphasis added). The division found the clause to be
mandatory because the parties had designated certain
mutually agreeable locations for suit and because the
term “any” excluded other forums. Id. at 1247-48. In
contrast, the subject provision does not contain
language indicating either mutual agreement or
exclusivity.
¶ 22 Vanderbeek further stated that contract
language “merely permitting suit in [a] forum does
not” require dismissal. Id. at 1247 (citing Excell, Inc.
v. Sterling Boiler & Mech., Inc., 106 F.3d 318 (10th
Cir. 1997)). And it cited Utah Pizza Service, Inc. v.
Heigel, 784 F. Supp. 835, 837 (D. Utah 1992), where
the forum selection clause stipulated that Michigan
shall have jurisdiction and that “venue is proper in
Michigan,” as an example of a permissive provision.
Even by the standards outlined in Vanderbeek, we
would conclude that the language in the subject
provision is permissive and does not require
dismissal.
III. Specific Personal Jurisdiction
¶ 23 The district court ruled that it did not have
specific personal jurisdiction over defendants because
defendants did not have sufficient minimum contacts

Appendix 11
with Colorado to meet the requirements of due
process. JTC asserts that Colorado has specific
jurisdiction by virtue of defendants’ (1) business
transactions with it, a Colorado company; and (2)
tortious acts in Colorado.
¶ 24 We agree that JTC made the requisite prima
facie showing of specific personal jurisdiction. Thus,
we conclude that the court erred in granting the
motion to dismiss for lack of personal jurisdiction.
A. Standard of Review
¶ 25 When, as here, a court decides a motion to
dismiss for lack of jurisdiction on documentary
evidence, without a hearing, “the plaintiff need only
demonstrate a prima facie showing of personal
jurisdiction to defeat the motion.” Archangel Diamond
Corp. v. Lukoil, 123 P.3d 1187, 1192 (Colo. 2005). The
plaintiff meets this burden when he raises a
reasonable inference, whether in the complaint or
other documentary evidence, that the court has
jurisdiction over the defendant. Goettman v. N. Fork
Valley Rest., 176 P.3d 60, 65 (Colo. 2007). The
plaintiff’s allegations must be accepted as true “to the
extent they are not contradicted by defendant’s
competent evidence,” and discrepancies in competent
evidence must be resolved in the plaintiff’s favor.
Archangel, 123 P.3d at 1192.
¶ 26 If our review of the documentary evidence
reveals specific personal jurisdiction under the
Colorado long-arm statute, “[d]ue process requires
that a defendant have certain minimum contacts with
the forum state so that he may foresee being
answerable in court there.” Id. at 1194.

Appendix 12
¶ 27 We review a dismissal based on documentary
evidence de novo. Gognat v. Ellsworth, 224 P.3d 1039,
1050 (Colo. App. 2009), aff’d, 259 P.3d 497 (Colo.
2011).
B. Specific Jurisdiction Under Colorado’s LongArm Statute And in Accord with Due Process
¶ 28 Our supreme court has “frequently held that
the long arm statute extends the jurisdiction of
Colorado courts to the fullest extent permitted by the
due process clauses of the United States and Colorado
Constitutions.” Classic Auto Sales, Inc. v. Schocket,
832 P.2d 233, 235 (Colo. 1992).
¶ 29 Section 13-1-124, C.R.S. 2019, the long-arm
statute, provides, as relevant here:
(1) Engaging in any act enumerated in this section
by any person, whether or not a resident of the state
of Colorado, either in person or by an agent, submits
such person and, if a natural person, such person’s
personal representative to the jurisdiction of the
courts of this state concerning any cause of action
arising from:
(a) The transaction of any business within this
state;
(b) The commission of a tortious act within this
state . . . .
¶ 30 Under the long-arm statute, actions by an
agent of the Pinnacle companies (Gary) may submit
the companies to the jurisdiction of Colorado courts.
See § 13-1-124(1). Even a single act can sometimes
support specific jurisdiction. Goettman, 176 P.3d at
69; First Horizon Merch. Servs., Inc. v. Wellspring

Appendix 13
Capital Mgmt., LLC, 166 P.3d 166, 173 (Colo. App.
2007).
¶ 31 “Due process prohibits the exercise of personal
jurisdiction over a nonresident defendant unless the
defendant has ‘certain minimum contacts with the
forum state such that maintenance of the suit does not
offend traditional notions of fair play and substantial
justice.’” Goettman, 176 P.3d at 67 (quoting Int’l Shoe
Co. v. Washington, 326 U.S. 310, 316 (1945)). “It is
essential that there be some action by which the
defendant purposefully avails himself of the privilege
of conducting activities in the forum state” so that he
will not be subject to personal jurisdiction solely as a
result of “random or fortuitous” contacts or the
“unilateral activity” of a third party.
Id. (quoting Keefe v. Kirschenbaum & Kirschenbaum,
P.C., 40 P.3d 1267, 1271 (Colo. 2002)).
¶ 32 Specific jurisdiction exists if the alleged
injuries “‘arise out of or relate to’ activities that are
significant and purposefully directed by the defendant
at residents of the forum.” Keefe, 40 P.3d at 1271
(quoting Burger King Corp. v. Rudzewicz, 471 U.S.
462, 472 (1985)).
1. Transaction of Business
¶ 33 JTC alleged in its complaint and provided
documentary evidence that (1) defendants knowingly
entered into a long-term and continuing business
relationship with JTC, a Colorado company; (2)
defendants directed numerous communications to
JTC in Colorado, some of which are the subject of
JTC’s complaint; (3) defendants solicited capital funds
from JTC, a Colorado company; and (4) Gary, acting
on behalf of the Pinnacle companies, traveled to

Appendix 14
Colorado to discuss and transact business related to
the companies with JTC.
¶ 34 Defendants do not deny that they discussed
concerns about mismanagement of the Pinnacle
companies during the trip to Colorado. They dispute
only (1) that the main purpose of Gary’s trip to
Colorado was business and (2) that Gary solicited
JTC’s initial $1.25 million capital investment. Gary
alleges that different agents of the Pinnacle
companies — agents of member managers Trinity and
Excelura — solicited the initial funds. But he does not
deny that he solicited additional funds.
¶ 35 JTC’s allegations, which we take as true
because they are not contradicted by defendants’
competent evidence, see Archangel, 123 P.3d at 1192,
meet the requirements of the long-arm statute and
Colorado’s “manifest interest in providing [its]
residents with a convenient forum for redressing
injuries inflicted by out-of-state actors.” New Frontier
Media, Inc. v. Freeman, 85 P.3d 611, 613 (Colo. App.
2003); see First Horizon, 166 P.3d at 175 (two letters,
a PowerPoint, and a conference call to Colorado were
sufficient to establish specific jurisdiction).
¶ 36 To determine whether defendants’ actions
were sufficient to constitute due process minimum
contacts, we consider the contacts in their totality. See
Rome v. Reyes, 2017 COA 84, ¶ 25. And we assess
whether, in total, (1) defendants purposefully availed
themselves of the privilege of conducting business in
the forum state and (2) the litigation arises out of
defendants’ forum-related contacts. First Horizon, 166
P.3d at 173.
¶ 37 These requirements may not be met by
“random, fortuitous, or attenuated contacts” with
Colorado. Bell Helicopter Textron, Inc. v. Heliqwest

Appendix 15
Int’l, Ltd., 385 F.3d 1291, 1296 (10th Cir. 2004)
(quoting Burger King, 471 U.S. at 475). But here,
defendants “purposefully directed” activities at a
resident of Colorado by soliciting capital contributions
from JTC and thus creating continuing obligations
between JTC and the Pinnacle companies. Burger
King, 471 U.S. at 473, 476. Moreover, Gary, as an
agent for the Pinnacle companies, discussed business
in Colorado in person and by communicating from outof-state. Based on all of these actions, defendants may
“reasonably anticipate being haled into court” in
Colorado for conversion and breaches of contract and
fiduciary duty concerning the solicited funds. WorldWide Volkswagen Corp. v. Woodson, 444 U.S. 286, 297
(1980).
¶ 38 We further conclude that it does not “offend
traditional notions of fair play and substantial justice”
to subject defendants to the jurisdiction of Colorado
courts; the exercise of personal jurisdiction is
reasonable because defendants purposefully solicited
capital contributions from a Colorado resident. Int’l
Shoe, 326 U.S. at 316; see Goetmann, 176 P.3d at 71.
“A defendant which has purposely directed its
activities at forum residents must present a
compelling case that some other consideration would
render the court’s exercise of jurisdiction
unreasonable.” Dorsey & Whitney LLP v. RegScan,
Inc., 2018 COA 21, ¶ 16. Defendants’ claim of “a
substantial burden” because they are Florida
residents that do not (1) regularly transact business
in Colorado, (2) have Colorado business licenses, or (3)
have Colorado offices does not compel a conclusion
that Colorado jurisdiction is unreasonable.
2. Tortious Acts

Appendix 16
¶ 39 Moreover, JTC alleges in its complaint and
provides documentary evidence that in 2015, when
defendant Gary traveled to Steamboat Springs to
meet with Daniel Bishop as representative of JTC to
discuss Pinnacle company business, he converted
funds by charging thousands of dollars of personal
expenses from the trip to PAMG. This alleged tort
occurred in Colorado, and tortious conduct occurring
in the state may by itself satisfy the long-arm statute.
Classic Auto, 832 P.2d at 236. The commission of a tort
may, “in itself, create[] a sufficient nexus between the
defendant and the state so as to satisfy the due
process inquiry.” Id. at 237. When a defendant
commits a tort in Colorado, he becomes “so connected
with the forum state that traditional notions of fair
play and substantial justice are not offended by the
state’s exercise of jurisdiction.” Goettman, 176 P.3d at
71 (quoting First Horizon, 166 P.3d at 175).
IV. Remaining Issues
A. Standing
¶ 40 Defendants raise the issue of standing for the
first time in their answer brief. They argue that JTC
has not suffered an injury in fact to a legally protected
interest because the alleged injuries caused harm not
to JTC directly, but to JTC as a member of the
Pinnacle companies. Accordingly, they contend that
JTC may not assert a direct claim unless it “has
suffered injuries separate and distinct from the injury
to the LLC[s] or the other members.” Young v. Bush,
2012 COA 47, ¶ 60.

Appendix 17
¶ 41 Defendants apparently acknowledge that the
allegedly misused money originated almost entirely
from JTC’s capital investments, and they argue that
this is not a separate injury because once the money
was invested, JTC lost any specific ownership
interest, and the money was the Pinnacle companies’
property.
¶ 42 JTC argues, however, that the misuse of JTC’s
capital fund contributions is not the primary injury
alleged in its complaint. JTC asserts in each of its
monetary claims for relief that it suffered injury
because of the dilution of its interest in the Pinnacle
companies to zero. Based on the appellate record, this
injury is distinct from any injury to the other
members. We are persuaded by this argument, and we
conclude that JTC has standing to pursue a claim for
damages. See Kim v. Grover C. Coors Tr., 179 P.3d 86,
89-90 (Colo. App. 2007) (concluding that the plaintiff,
whose injury was not common to all shareholders, had
standing to pursue claims against a corporate board).
¶ 43 We are aware that the facts in the record are
not fully developed and that the district court was not
given an opportunity to rule on this issue. Therefore,
to the extent additional facts arise on remand, the
district court may decide issues of standing should
defendants decide to re-raise the issue.
B. Attorney Fees
¶ 44 Because we conclude that Jefferson County,
Colorado, is a proper forum and defendants have
submitted to Colorado’s specific personal jurisdiction
through their business transactions and tortious
actions in the state, we further conclude that

Appendix 18
defendants are not entitled to attorney fees for their
defense of this action.
V. Conclusion
¶ 45 We reverse the district court orders
dismissing JTC’s lawsuit and awarding attorney fees
to defendants, and we remand the case to the district
court for further proceedings consistent with this
opinion.
JUDGE DUNN and JUDGE YUN concur.

Appendix 19
APPENDIX C—Opinion of the Colorado Court
of Appeals Filed May 21, 2020
Case No. 2019CA382
PETER F. GARY, an individual and Florida
citizen; PINNACLE HOLDINGS GROUP, LLC,
a Florida limited liability company; PINNACLE
ADVERTISING & MARKETING GROUP, LLC,
a Florida limited liability company; PINNACLE
ADVISORY MANAGEMENT, LLC, a Florida
limited liability company; and PINNACLE
DIGITAL LLC, a Florida limited liability
company,
Defendants-Appellees,
v.
HOLDINGS, LLC, a Colorado limited liability
company.
Appellant.
JUDGMENT REVERSED AND CASE REMANDED
WITH DIRECTIONS
Opinion by JUDGE RICHMAN
Dunn and Yun, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced May 21, 2020
¶ 1 Plaintiff, JTC Holdings, LLC, a Colorado
limited liability company, appeals district court orders

Appendix 20
(1) dismissing its lawsuit against and (2) awarding
attorney fees to defendants, Peter F. Gary, a Florida
citizen, and Florida limited liability companies
Pinnacle Holdings Group, LLC (PHG), Pinnacle
Advertising & Marketing Group, LLC (PAMG),
Pinnacle Advisory Management, LLC (PAM), and
Pinnacle Digital, LLC (PD). Because we conclude that
the relevant operating agreements permit suit in
Colorado and that defendants have sufficient
minimum contacts with Colorado to confer specific
personal jurisdiction, we reverse the judgment and
remand the case for further proceedings.
I. Background
¶ 2 On October 1, 2014, plaintiff entered into
operating agreements wherein he became a managing
member of three defendant Pinnacle companies —
PHG, PAMG, and PD — each formed for activities
related to “selling, promoting and managing
businesses and/or individuals in the entertainment,
media, and sports industries.” At that time, JTC made
the lone capital contribution to each company, in
respective amounts of $500,000, $600,000, and
$150,000.
¶ 3 Defendant Gary is the Chief Executive Officer
of FNB Media, LLC, which is a managing member of
PHG and PAMG. FNB Media and the two other
managing members of these companies — Trinity
International, LLC and Excelura, LLC — are each
located in Florida.1
1 In 2015, Trinity and Excelura each sold portions
of their managing membership interest in PAMG to

Appendix 21
SMGI United, LLC, a Texas company.
contributed $500,000 capital to PAMG.

SMGI

¶ 4 PHG and JTC are the managing members of
PD. PHG is the sole managing member of PAM, also
formed on October 1, 2014.
¶ 5 According to JTC’s complaint, Gary asked it for
additional capital contributions in 2015. In September
of that year, JTC became suspicious that its
investment was being mismanaged and demanded
disclosure of the Pinnacle companies’ records. When
records were not forthcoming, JTC brought a “Records
Action” in Florida, seeking to compel the production of
the companies’ financial documents. The eventual
records disclosure suggested to JTC that Gary had
improperly charged hundreds of thousands of dollars
in personal expenses to the Pinnacle companies from
2014-2017. Some of the allegedly improper charges
occurred in Colorado, and those charges were paid by
PAMG.
¶ 6 Also according to the complaint, Gary called a
member meeting in September 2015, without proper
notice to JTC. At the meeting, in JTC’s absence, Gary
proposed (1) dissolution of PHG, PD, and PAM and
transfer of all assets and liabilities to PAMG; and (2)
that each member agree to provide additional funds to
PAMG or have its membership interest reduced to
zero. All members in attendance voted in favor of the
proposals. JTC did not provide additional funds. Gary
dissolved PHG, PD, and PAM, and “ended” JTC’s
interest in PAMG.
¶ 7 JTC filed a complaint against defendants in
federal district court in Colorado. That complaint is
not in the record. JTC alleges that it “voluntarily
dismissed that case” to avoid a potential Tenth Circuit

Appendix 22
decision that the federal courts lacked diversity
jurisdiction.
¶ 8 JTC next filed the instant complaint in
Jefferson County, its principal place of business. It
claims conversion, breach of contract, and accounting
against all defendants, and breach of fiduciary duty
against defendant Gary.
¶ 9 Defendants moved to dismiss on the grounds of
improper venue, lack of personal jurisdiction, and
plaintiff’s failure to properly plead derivative claims.
The district court granted the motion, finding that (1)
the operating agreements contained a mandatory
forum selection clause, requiring claims under the
agreements to be brought in Palm Beach County,
Florida; and (2) it did not have personal jurisdiction
because defendants did not have sufficient minimum
contacts with Colorado.2 We disagree on both counts.
The district court did not reach defendants’
argument that the case should be dismissed because JTC
had failed to properly plead derivative claims.
2

¶ 10 Because we reverse the dismissal, we
necessarily reverse the attorney fees award, and we
need not address the specifics of that order.
II. Venue
¶ 11 We review a district court’s interpretation of
a contract de novo. Ad Two, Inc. v. City & Cty. of
Denver, 9 P.3d 373, 376 (Colo. 2000); see People v. Ray,
109 P.3d 996, 999 (Colo. App. 2004) (holding that a
court’s legal conclusion regarding appropriate venue
is subject to de novo review).

Appendix 23
¶ 12 The operating agreements for each Pinnacle
defendant contain the following clause:
Governing Law and Venue. This Operating
Agreement and the rights of the Members are
governed by and construed and enforced in accordance
with the laws of the State of Florida, with venue
proper in Palm Beach County, Florida.
¶ 13 The district court concluded, applying
Colorado law, that the provision constituted a
“mandatory” venue provision, as opposed to a
permissive provision, and required venue be lodged in
Palm Beach County, Florida. We conclude that the
district court erred.
A. Governing Law
¶ 14 Though the contract term for venue specifies
the choice of law, and defendants asserted in the reply
supporting their motion to dismiss that Florida law
applies,3 neither plaintiff nor the district court
considered whether Florida law should govern
whether the contract permits suit in a forum other
than Palm Beach County, Florida. We agree with
defendants that Florida law governs this
determination.
3 Defendants point out this issue once again in their
appellate answer brief.

¶ 15 When parties to a contract choose the law to
govern their contract, Colorado courts will apply the
chosen law unless “the chosen state has no substantial
relationship to the parties or the transaction and
there is no other reasonable basis for the parties’

Appendix 24
choice.” Restatement (Second) of Conflict of Laws §
187 (Am. Law Inst. 1971); see Wood Bros. Homes, Inc.
v. Walker Adjustment Bureau, 198 Colo. 444, 447, 601
P.2d 1369, 1372 (1979) (adopting the Restatement
(Second) approach for contract actions). We treat
choice of law provisions as mandatory when “the
language of the parties’ agreement [is] clear in its
designation.” Mountain States Adjustment v. Cooke,
2016 COA 80, ¶ 15. We construe this provision to
clearly designate “the laws of the State of Florida” to
govern the contract.
¶ 16 A forum selection clause is part of the
contract, to be governed by the law selected by the
parties to the contract. Yavuz v. 61 MM, Ltd., 465 F.3d
418, 428 (10th Cir. 2006) (“[W]hen the contract
contains a choice-of-law clause, a court can effectuate
the parties’ agreement concerning the forum only if it
interprets the forum clause under the chosen law.”);
see Edge Telecom v. Sterling Bank, 143 P.3d 1155,
1158-59 (Colo. App. 2006) (holding that the issue of
interpretation of a forum selection clause is a matter
of substantive contract law).
¶ 17 We apply Florida law to interpret the venue
clause.
B. Venue Provision is Permissive
¶ 18 In Florida, “[t]he general rule is that a forum
selection clause will be considered permissive if it
lacks words of exclusivity.” Celistics, LLC v. Gonzalez,
22 So. 3d 824, 826 (Fla. Dist. Ct. App. 2009). Absent
“magic” words of exclusivity such as shall, must,
exclusively, or only, a provision may nonetheless be
interpreted as mandatory if it indicates agreement by
the parties to select a particular venue or limits the

Appendix 25
appropriate forum to only one option. See id.
(concluding that language of exclusivity is included in
the provision “the parties agree to select the venue
and jurisdiction of the Courts and Tribunals of the city
of Madrid”); see also Quick Cash, LLC v. Tradenet
Enter. Inc., 211 So. 3d 1113, 1114 (Fla. Dist. Ct. App.
2017).
¶ 19 We discern no language of exclusivity in the
subject venue provision. It does not contain language
indicating the parties’ agreement. It indicates one
proper venue, but it does not suggest that Palm Beach
County is the only proper venue or that other venues
would be improper. Indeed, the clause is nearly
identical to one interpreted by a Florida District Court
of Appeal to be permissive regarding venue because it
lacks words of exclusivity. See Regal Kitchens, Inc. v.
O’Connor & Taylor Condo. Constr., Inc., 894 So. 2d
288, 290 (Fla. Dist. Ct. App. 2005) (“Any litigation
concerning this contract shall be governed by the law
of the State of Florida, with proper venue in Palm
Beach County.”) (emphasis added). The court
concluded that such language is “nothing more than a
consent to jurisdiction and venue in the named forum
and do[es] not exclude jurisdiction or venue in any
other forum.” Id. at 291; cf. Golf Scoring Sys.
Unlimited, Inc. v. Remedio, 877 So. 2d 827, 829 (Fla.
Dist. Ct. App. 2004) (holding that the phrase “the
proper venue” is sufficient to designate a mandatory
forum because “‘the’ limits that to which it refers to
only one, to the exclusion of all others”) (emphasis
added).
¶ 20 Accordingly, we conclude that it was error for
the district court to apply Colorado law and dismiss
this action for improper venue in Jefferson County,
Colorado, where plaintiff resides. See Denver Air Ctr.

Appendix 26
v. Dist. Court, 839 P.2d 1182, 1184-85 (Colo. 1992)
(“The language of [C.R.C.P. 98(c)] has been
interpreted to permit trial of an action in the county
of plaintiff’s choice where no defendant is a resident of
Colorado.”).
¶ 21 Moreover, we conclude that the district court
misapplied Vanderbeek v. Vernon Corp., 25 P.3d 1242
(Colo. App. 2000), aff’d, 50 P.3d 866 (Colo. 2002), the
only case on which it relied, to interpret the subject
venue clause as mandatory under Colorado law. The
division in Vanderbeek interpreted a clause wherein
the parties “expressly agree[d] to submit any dispute
or action . . . to the jurisdiction of [specific state,
federal, and international courts].” Id. at 1247
(emphasis added). The division found the clause to be
mandatory because the parties had designated certain
mutually agreeable locations for suit and because the
term “any” excluded other forums. Id. at 1247-48. In
contrast, the subject provision does not contain
language indicating either mutual agreement or
exclusivity.
¶ 22 Vanderbeek further stated that contract
language “merely permitting suit in [a] forum does
not” require dismissal. Id. at 1247 (citing Excell, Inc.
v. Sterling Boiler & Mech., Inc., 106 F.3d 318 (10th
Cir. 1997)). And it cited Utah Pizza Service, Inc. v.
Heigel, 784 F. Supp. 835, 837 (D. Utah 1992), where
the forum selection clause stipulated that Michigan
shall have jurisdiction and that “venue is proper in
Michigan,” as an example of a permissive provision.
Even by the standards outlined in Vanderbeek, we
would conclude that the language in the subject
provision is permissive and does not require
dismissal.

Appendix 27
III. Specific Personal Jurisdiction
¶ 23 The district court ruled that it did not have
specific personal jurisdiction over defendants because
defendants did not have sufficient minimum contacts
with Colorado to meet the requirements of due
process. JTC asserts that Colorado has specific
jurisdiction by virtue of defendants’ (1) business
transactions with it, a Colorado company; and (2)
tortious acts in Colorado.
¶ 24 We agree that JTC made the requisite prima
facie showing of specific personal jurisdiction. Thus,
we conclude that the court erred in granting the
motion to dismiss for lack of personal jurisdiction.
A. Standard of Review
¶ 25 When, as here, a court decides a motion to
dismiss for lack of jurisdiction on documentary
evidence, without a hearing, “the plaintiff need only
demonstrate a prima facie showing of personal
jurisdiction to defeat the motion.” Archangel Diamond
Corp. v. Lukoil, 123 P.3d 1187, 1192 (Colo. 2005). The
plaintiff meets this burden when he raises a
reasonable inference, whether in the complaint or
other documentary evidence, that the court has
jurisdiction over the defendant. Goettman v. N. Fork
Valley Rest., 176 P.3d 60, 65 (Colo. 2007). The
plaintiff’s allegations must be accepted as true “to the
extent they are not contradicted by defendant’s
competent evidence,” and discrepancies in competent
evidence must be resolved in the plaintiff’s favor.
Archangel, 123 P.3d at 1192.
¶ 26 If our review of the documentary evidence
reveals specific personal jurisdiction under the

Appendix 28
Colorado long-arm statute, “[d]ue process requires
that a defendant have certain minimum contacts with
the forum state so that he may foresee being
answerable in court there.” Id. at 1194.
¶ 27 We review a dismissal based on documentary
evidence de novo. Gognat v. Ellsworth, 224 P.3d 1039,
1050 (Colo. App. 2009), aff’d, 259 P.3d 497 (Colo.
2011).
B. Specific Jurisdiction Under Colorado’s LongArm Statute And in Accord with Due Process
¶ 28 Our supreme court has “frequently held that
the long arm statute extends the jurisdiction of
Colorado courts to the fullest extent permitted by the
due process clauses of the United States and Colorado
Constitutions.” Classic Auto Sales, Inc. v. Schocket,
832 P.2d 233, 235 (Colo. 1992).
¶ 29 Section 13-1-124, C.R.S. 2019, the long-arm
statute, provides, as relevant here:
(1) Engaging in any act enumerated in this section
by any person, whether or not a resident of the state
of Colorado, either in person or by an agent, submits
such person and, if a natural person, such person’s
personal representative to the jurisdiction of the
courts of this state concerning any cause of action
arising from:
(a) The transaction of any business within this
state;
(b) The commission of a tortious act within this
state . . . .
¶ 30 Under the long-arm statute, actions by an
agent of the Pinnacle companies (Gary) may submit

Appendix 29
the companies to the jurisdiction of Colorado courts.
See § 13-1-124(1). Even a single act can sometimes
support specific jurisdiction. Goettman, 176 P.3d at
69; First Horizon Merch. Servs., Inc. v. Wellspring
Capital Mgmt., LLC, 166 P.3d 166, 173 (Colo. App.
2007).
¶ 31 “Due process prohibits the exercise of personal
jurisdiction over a nonresident defendant unless the
defendant has ‘certain minimum contacts with the
forum state such that maintenance of the suit does not
offend traditional notions of fair play and substantial
justice.’” Goettman, 176 P.3d at 67 (quoting Int’l Shoe
Co. v. Washington, 326 U.S. 310, 316 (1945)). “It is
essential that there be some action by which the
defendant purposefully avails himself of the privilege
of conducting activities in the forum state” so that he
will not be subject to personal jurisdiction solely as a
result of “random or fortuitous” contacts or the
“unilateral activity” of a third party.
Id. (quoting Keefe v. Kirschenbaum & Kirschenbaum,
P.C., 40 P.3d 1267, 1271 (Colo. 2002)).
¶ 32 Specific jurisdiction exists if the alleged
injuries “‘arise out of or relate to’ activities that are
significant and purposefully directed by the defendant
at residents of the forum.” Keefe, 40 P.3d at 1271
(quoting Burger King Corp. v. Rudzewicz, 471 U.S.
462, 472 (1985)).
1. Transaction of Business
¶ 33 JTC alleged in its complaint and provided
documentary evidence that (1) defendants knowingly
entered into a long-term and continuing business
relationship with JTC, a Colorado company; (2)
defendants directed numerous communications to

Appendix 30
JTC in Colorado, some of which are the subject of
JTC’s complaint; (3) defendants solicited capital funds
from JTC, a Colorado company; and (4) Gary, acting
on behalf of the Pinnacle companies, traveled to
Colorado to discuss and transact business related to
the companies with JTC.
¶ 34 Defendants do not deny that they discussed
concerns about mismanagement of the Pinnacle
companies during the trip to Colorado. They dispute
only (1) that the main purpose of Gary’s trip to
Colorado was business and (2) that Gary solicited
JTC’s initial $1.25 million capital investment. Gary
alleges that different agents of the Pinnacle
companies — agents of member managers Trinity and
Excelura — solicited the initial funds. But he does not
deny that he solicited additional funds.
¶ 35 JTC’s allegations, which we take as true
because they are not contradicted by defendants’
competent evidence, see Archangel, 123 P.3d at 1192,
meet the requirements of the long-arm statute and
Colorado’s “manifest interest in providing [its]
residents with a convenient forum for redressing
injuries inflicted by out-of-state actors.” New Frontier
Media, Inc. v. Freeman, 85 P.3d 611, 613 (Colo. App.
2003); see First Horizon, 166 P.3d at 175 (two letters,
a PowerPoint, and a conference call to Colorado were
sufficient to establish specific jurisdiction).
¶ 36 To determine whether defendants’ actions
were sufficient to constitute due process minimum
contacts, we consider the contacts in their totality. See
Rome v. Reyes, 2017 COA 84, ¶ 25. And we assess
whether, in total, (1) defendants purposefully availed
themselves of the privilege of conducting business in
the forum state and (2) the litigation arises out of

Appendix 31
defendants’ forum-related contacts. First Horizon, 166
P.3d at 173.
¶ 37 These requirements may not be met by
“random, fortuitous, or attenuated contacts” with
Colorado. Bell Helicopter Textron, Inc. v. Heliqwest
Int’l, Ltd., 385 F.3d 1291, 1296 (10th Cir. 2004)
(quoting Burger King, 471 U.S. at 475). But here,
defendants “purposefully directed” activities at a
resident of Colorado by soliciting capital contributions
from JTC and thus creating continuing obligations
between JTC and the Pinnacle companies. Burger
King, 471 U.S. at 473, 476. Moreover, Gary, as an
agent for the Pinnacle companies, discussed business
in Colorado in person and by communicating from outof-state. Based on all of these actions, defendants may
“reasonably anticipate being haled into court” in
Colorado for conversion and breaches of contract and
fiduciary duty concerning the solicited funds. WorldWide Volkswagen Corp. v. Woodson, 444 U.S. 286, 297
(1980).
¶ 38 We further conclude that it does not “offend
traditional notions of fair play and substantial justice”
to subject defendants to the jurisdiction of Colorado
courts; the exercise of personal jurisdiction is
reasonable because defendants purposefully solicited
capital contributions from a Colorado resident. Int’l
Shoe, 326 U.S. at 316; see Goetmann, 176 P.3d at 71.
“A defendant which has purposely directed its
activities at forum residents must present a
compelling case that some other consideration would
render the court’s exercise of jurisdiction
unreasonable.” Dorsey & Whitney LLP v. RegScan,
Inc., 2018 COA 21, ¶ 16. Defendants’ claim of “a
substantial burden” because they are Florida
residents that do not (1) regularly transact business

Appendix 32
in Colorado, (2) have Colorado business licenses, or (3)
have Colorado offices does not compel a conclusion
that Colorado jurisdiction is unreasonable.
¶ 38 We conclude that it does not “offend
traditional notions of fair play and substantial justice”
to subject defendants to the jurisdiction of Colorado
courts. Int’l Shoe, 326 U.S. at 316.
2. Tortious Acts
¶ 39 Moreover, JTC alleges in its complaint and
provides documentary evidence that in 2015, when
defendant Gary traveled to Steamboat Springs to
meet with Daniel Bishop as representative of JTC to
discuss Pinnacle company business, he converted
funds by charging thousands of dollars of personal
expenses from the trip to PAMG. This alleged tort
occurred in Colorado, and tortious conduct occurring
in the state may by itself satisfy the long-arm statute.
Classic Auto, 832 P.2d at 236. The commission of a tort
may, “in itself, create[] a sufficient nexus between the
defendant and the state so as to satisfy the due
process inquiry.” Id. at 237. When a defendant
commits a tort in Colorado, he becomes “so connected
with the forum state that traditional notions of fair
play and substantial justice are not offended by the
state’s exercise of jurisdiction.” Goettman, 176 P.3d at
71 (quoting First Horizon, 166 P.3d at 175).
IV. Remaining Issues
A. Standing
¶ 40 Defendants raise the issue of standing for the
first time in their answer brief. They argue that JTC

Appendix 33
has not suffered an injury in fact to a legally protected
interest because the alleged injuries caused harm not
to JTC directly, but to JTC as a member of the
Pinnacle companies. Accordingly, they contend that
JTC may not assert a direct claim unless it “has
suffered injuries separate and distinct from the injury
to the LLC[s] or the other members.” Young v. Bush,
2012 COA 47, ¶ 60.
¶ 41 Defendants apparently acknowledge that the
allegedly misused money originated almost entirely
from JTC’s capital investments, and they argue that
this is not a separate injury because once the money
was invested, JTC lost any specific ownership
interest, and the money was the Pinnacle companies’
property.
¶ 42 JTC argues, however, that the misuse of JTC’s
capital fund contributions is not the primary injury
alleged in its complaint. JTC asserts in each of its
monetary claims for relief that it suffered injury
because of the dilution of its interest in the Pinnacle
companies to zero. Based on the appellate record, this
injury is distinct from any injury to the other
members. We are persuaded by this argument, and we
conclude that JTC has standing to pursue a claim for
damages. See Kim v. Grover C. Coors Tr., 179 P.3d 86,
89-90 (Colo. App. 2007) (concluding that the plaintiff,
whose injury was not common to all shareholders, had
standing to pursue claims against a corporate board).
¶ 43 We are aware that the facts in the record are
not fully developed and that the district court was not
given an opportunity to rule on this issue. Therefore,
to the extent additional facts arise on remand, the
district court may decide issues of standing should
defendants decide to re-raise the issue.

Appendix 34
B. Attorney Fees
¶ 44 Because we conclude that Jefferson County,
Colorado, is a proper forum and defendants have
submitted to Colorado’s specific personal jurisdiction
through their business transactions and tortious
actions in the state, we further conclude that
defendants are not entitled to attorney fees for their
defense of this action.
V. Conclusion
¶ 45 We reverse the district court orders
dismissing JTC’s lawsuit and awarding attorney fees
to defendants, and we remand the case to the district
court for further proceedings consistent with this
opinion.
JUDGE DUNN and JUDGE YUN concur.

